           Food and Beverage Service:
Further Actions Needed to Address Revenue Losses
      Due to Control Weaknesses and Gaps

                 Report No. E-11-03


                     June 23, 2011




               Evaluation Report Issued By

     NATIONAL RAILROAD PASSENGER CORPORATION
           OFFICE OF INSPECTOR GENERAL
                  10 G STREET, N.E.
               WASHINGTON, D.C. 20002
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                                 The Inspector General


Memorandum
To:            Joseph H. Boardman
               President and Chief Executive Officer


From:          Ted Alves

Date:          June 23, 2011

Subject:       Food and Beverage Service: Further Actions Needed to Address Revenue Losses
               Due to Control Weaknesses and Gaps (Report No. E-11-03)


The objectives of this report—based in part on work performed since 2003—are to
provide Amtrak officials with (1) a summary of internal control weaknesses and gaps in
food and beverage service, and (2) recommendations to address these weaknesses and
gaps.

As you know, Amtrak operates more than 300 trains each day—most with food and
beverage service—over more than 40 routes, carrying an average of 78,500 passengers.
Amtrak’s lead service attendants (LSAs) provide these passengers with food and
beverage service, such as meals, snacks, soda, juice, and alcoholic beverages. In fiscal
year (FY) 2010, food and beverage service earned Amtrak $131 million—$98 million
from sales and $33 million from state revenue associated with food and beverage
service—at a direct cost of $192 million.1 Amtrak also allocated another $93 million in
indirect costs—such as fuel, power, and maintenance costs—to food and beverage
service in calculating route profit and loss.

Because food and beverage service can affect ticket sales and customer satisfaction, 2 we
decided to provide Amtrak officials with a summary of the long-standing internal
control weaknesses and gaps that continue to make on-board food and beverage
revenues and inventories vulnerable to fraud, waste, and abuse. On May 5, 2011, we
briefed Transportation Division officials on these results. The briefing is attached.


1Amtrak, Food and Beverage Report, Year-to-Date, September 2010 (Final Audited), January 24, 2011.
2Sections 207 and 210 of the Passenger Rail Investment and Improvement Act of 2008 require Amtrak to
develop and improve performance metrics for on-board service.
                          Amtrak Office of Inspector General
            Food and Beverage Service: Further Actions Needed to Address
                Revenue Losses Due to Control Weaknesses and Gaps
                          Report No. E-11-03, June 23, 2011

SCOPE AND METHODOLOGY
To summarize internal control weaknesses and gaps in Amtrak food and beverage
service, we relied on the results of our prior evaluations and investigations since 2003.
To identify fraudulent transactions, we used spotters to test on-board food and
beverage transactions, observed LSA actions and procedures, and reviewed available
documentation. We also met with officials from the Transportation; Marketing and
Product Development; and Finance departments to discuss Amtrak’s actions to improve
the economy, efficiency, and internal controls over food and beverage service. In
developing a list of best practices, we included lessons learned from industry loss-
prevention programs and cashless sales environments.

For Amtrak management’s comments, see Appendix I.



RESULTS IN BRIEF
While Amtrak has taken some action to address internal control weaknesses that have
led to and continue to make on-board food and beverage revenues and inventories
vulnerable to fraud, waste, and abuse, such weaknesses and gaps remain. These control
weaknesses and gaps allow certain LSAs to carry out schemes in which they falsify
documents to conceal stolen cash or inventory. The fraudulent nature of these schemes
makes it difficult to measure on-board losses. Still, restaurant-industry sources estimate
that losses for a typical independent restaurant due to theft range from 4 percent to 7
percent of sales. On the basis of these estimates, $4 million to $7 million of Amtrak’s on-
board food and beverage sales could be at risk of theft. These losses also damage
Amtrak’s reputation as a steward of federal funds and as a provider of high-quality
customer service.



Fraud, Waste, and Abuse Are Long-standing Problems
Between March 2003 and January 2010, we identified 903 theft, dishonesty, and
policy/procedure violations by 306 LSAs, and issued 447 administrative referrals to
Amtrak managers. The recurring schemes described in this report involve the
falsification of documents to conceal missing food and beverage revenues and
inventories. Specifically:



                                             2
                          Amtrak Office of Inspector General
            Food and Beverage Service: Further Actions Needed to Address
                Revenue Losses Due to Control Weaknesses and Gaps
                          Report No. E-11-03, June 23, 2011

   Inflating first-class meal checks. This scheme involves adding items to first-class
   passengers’ meal checks—meals are provided free to first-class passengers—and
   selling these items to other passengers for cash.

   Selling non-Amtrak items. This scheme involves smuggling non-Amtrak items on
   board a train and selling them to passengers.

   Shorting cash register sales. This scheme involves selling items for their retail value
   and ringing up smaller amounts, with LSAs pocketing the difference.

   Stealing inventory. This scheme involves directly taking dining car food (rice, oil,
   eggs, and potatoes) and other items—complimentary beverages, paper products,
   and open wine bottles.

   Providing items at no cost. This scheme involves providing customers with
   complimentary items and providing free drink refills without authorization.



Amtrak Has Acted to Improve Economy, Efficiency, and Internal
Controls
Amtrak officials have already improved or have actions underway to improve the
economy, efficiency, and internal controls of on-board food and beverage service. For
example, Amtrak has established a centralized system to help automate the collection of
revenue shortages, restructured staffing for dining cars to reduce labor costs,
introduced seat cart service for selected high-traffic routes to improve cost recovery,
and introduced on-board electronic credit card technology to increase sales. Further, it
is implementing a warehouse inventory management system to automate ordering,
receiving, and inventory management, and to provide real-time data. Amtrak is also
developing an on-board point-of-sale system that will automate processes, improve
data timeliness and reliability, and enhance the LSA work environment by reducing
paperwork and eliminating error-prone processes.



Internal Control Weaknesses and Gaps Remain
Despite the steps that Amtrak has taken to improve this problem, internal control
weaknesses and gaps over on-board food and beverage service still exist. Compared
with industry best practices, Amtrak still lacks

                                              3
                          Amtrak Office of Inspector General
            Food and Beverage Service: Further Actions Needed to Address
                Revenue Losses Due to Control Weaknesses and Gaps
                          Report No. E-11-03, June 23, 2011

   a loss-prevention unit with dedicated staff to manage loss; investigate cash and
   inventory losses; and provide a visible deterrent to fraud, waste, and abuse;

   a management-sponsored fraud-awareness program for on-board service
   employees;

   random, internal management searches of LSAs and other service employees to
   detect possible unauthorized items coming on board;

   random, internal management reviews of LSAs’ inventories of deliveries, en route
   transfers, or end-of-trip stocks to minimize fraud, waste, and abuse;

   random, internal management searches of LSAs and other service employees when
   departing the train to detect possible stolen items; and

   cashless sales to remove the opportunity to steal cash.

Although Amtrak officials have proposed moving to on-board cashless sales, no firm
plans exist at this time. Yet there are many benefits to cashless sales, among them
reduced inventory and cash losses due to handling errors, theft, and fraud. Cashless
sales have been proven to increase revenues through higher individual check amounts
and more customer purchases. Such a system would also simplify the LSAs’ work
because there would be no need to carry or account for cash.

Most domestic airlines have implemented in-flight cashless sales. During tests of
cashless flights, airlines reported, customers spent more when using charge cards.
Airlines were also able to simplify in-flight procedures for their flight attendants so that
they could focus more on customer service and safety. However, according to
Transportation Department officials, on-board cashless sales may not be appropriate for
some selected Amtrak routes and trains due to the unique nature of the rail passenger
industry.



CONCLUSIONS
Despite actions taken or underway, further measures would clearly make a difference
in improving internal control weaknesses and gaps over on-board food and beverage
service. Planned improvements in warehouse inventory management and point-of-sale
systems will not be sufficient to eliminate all vulnerabilities. As a result, on-board food
and beverage services, revenues, and inventories will continue to be at risk of loss to

                                             4
                          Amtrak Office of Inspector General
            Food and Beverage Service: Further Actions Needed to Address
                Revenue Losses Due to Control Weaknesses and Gaps
                          Report No. E-11-03, June 23, 2011

fraud, waste, and abuse. Correcting these problems would increase revenues, improve
customer service, and help reduce Amtrak’s reliance on federal subsidies. Further, the
damage to Amtrak’s reputation and the morale of honest employees demands an end to
the present culture of abuse. Customer service suffers when on-board employees can
easily circumvent controls and implement schemes that allow them to steal.



RECOMMENDATIONS
We recommend that the President and Chief Executive Officer direct that actions be
taken to:

1. Establish a pilot project of cashless food and beverage sales on selected routes and
   trains to determine the short- and long-term effects on operations loss prevention,
   revenues, costs, customer satisfaction, and the on-board work environment.

2. Provide resources needed to establish a loss-prevention unit with dedicated staff to
   manage loss prevention, investigate losses, and provide a visible deterrent to fraud,
   waste, and abuse.

3. Have the loss-prevention unit implement an internal control action plan to address
   weaknesses and gaps in the on-board food and beverage service. The plan should
   include goals, milestones, and procedures to establish

      a fraud-awareness program for on-board food and beverage employees;

      internal controls and processes to randomly search LSAs and other service
      employees to detect possible unauthorized items coming on board;

      internal controls and processes to randomly review LSAs’ inventories of
      deliveries, en route transfers, and end-of-trip stocks to minimize fraud, waste,
      and abuse; and

      internal controls and processes to randomly search LSAs and other service
      employees when departing the train to detect possible stolen items.




                                            5
                           Amtrak Office of Inspector General
             Food and Beverage Service: Further Actions Needed to Address
                 Revenue Losses Due to Control Weaknesses and Gaps
                           Report No. E-11-03, June 23, 2011

MANAGEMENT COMMENTS AND OIG ANALYSIS
In commenting on a draft of this report, Amtrak management agreed with all of our
recommendations. The cited actions are responsive to our recommendations and we
will continue to follow up on implementation progress. Management also provided
technical comments on certain aspects of the report. We considered those comments
and incorporated them into this report where appropriate.

We appreciate the courtesies and cooperation of Amtrak representatives during the
preparation of this report. If you or your staff have any questions, please contact Eileen
Magee, Supervisory Loss Prevention Coordinator, at 215-349-1856
(Eileen.Magee@amtrakoig.gov); Mark A. Little, Senior Director, Audits, at 202-906-4893
(Mark.Little@amtrakoig.gov); or David R. Warren, Assistant Inspector General, Audits,
at 202-906-4742 (David.Warren@amtrakoig.gov).




cc:    Richard Phelps, Vice President, Transportation
       Emmett Fremaux, Vice President, Marketing and Product Development
       William Herrmann, Managing Deputy General Counsel
       Jessica Scritchfield, Senior Director, Internal Controls/Audit



Attachment




                                             6
                       Amtrak Office of Inspector General
         Food and Beverage Service: Further Actions Needed to Address
             Revenue Losses Due to Control Weaknesses and Gaps
                       Report No. E-11-03, June 23, 2011

Attachment

                                 BRIEFING




                                      7
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                             8
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                             9
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            10
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            11
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            12
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            13
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            14
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            15
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            16
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            17
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            18
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            19
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            20
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            21
               Amtrak Office of Inspector General
 Food and Beverage Service: Further Actions Needed to Address
     Revenue Losses Due to Control Weaknesses and Gaps
               Report No. E-11-03, June 23, 2011

                         Appendix I

COMMENTS FROM AMTRAK’S PRESIDENT AND CEO




                             22
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            23
              Amtrak Office of Inspector General
Food and Beverage Service: Further Actions Needed to Address
    Revenue Losses Due to Control Weaknesses and Gaps
              Report No. E-11-03, June 23, 2011




                            24
                    Amtrak Office of Inspector General
      Food and Beverage Service: Further Actions Needed to Address
          Revenue Losses Due to Control Weaknesses and Gaps
                    Report No. E-11-03, June 23, 2011

                              Appendix II

                         ABBREVIATIONS


LSA          Lead Service Attendant

OIG          Office of Inspector General




                                   25
                          Amtrak Office of Inspector General
            Food and Beverage Service: Further Actions Needed to Address
                Revenue Losses Due to Control Weaknesses and Gaps
                          Report No. E-11-03, June 23, 2011

                                   Appendix III

                             OIG TEAM MEMBERS

David R. Warren                 Assistant Inspector General, Audits

Eileen Magee                    Supervisory Loss Prevention Coordinator

Ed Vogel, Jr.                   Chief, Inspections and Evaluations

John Grimes                     Chief Inspector

Mark A. Little                  Senior Director, Audits




                                        26
                         Amtrak Office of Inspector General
           Food and Beverage Service: Further Actions Needed to Address
               Revenue Losses Due to Control Weaknesses and Gaps
                         Report No. E-11-03, June 23, 2011

          OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission       Amtrak OIG’s mission is to

                            conduct and supervise independent and objective audits,
                             inspections, evaluations, and investigations relating to
                             Amtrak programs and operations;

                            promote economy, effectiveness, and efficiency within
                             Amtrak;

                            prevent and detect fraud, waste, and abuse in Amtrak's
                             programs and operations;

                            review security and safety policies and programs; and

                            review and make recommendations regarding existing
                             and proposed legislation and regulations relating to
                             Amtrak's programs and operations.

Obtaining Copies of        Available at our website: www.amtrakoig.gov.
OIG Reports and
Testimony

To Report Fraud,           Report suspicious or illegal activities to the OIG Hotline
Waste, and Abuse           (you can remain anonymous):

                           Web: www.amtrakoig.gov/hotline
                           Phone: 800-468-5469

Congressional Affairs & E. Bret Coulson
Public Relations        Congressional Affairs & Public Relations
                           Mail: Amtrak OIG
                                 10 G Street, N.E., 3W-300
                                 Washington, D.C. 20002
                           Phone: 202-906-4134
                           Email: bret.coulson@amtrakoig.gov



                                        27
